                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              PROGRAM DESIGN ISSUES HAMPERED ETA'S
                                              ABILITY TO ENSURE THE H-2B VISA PROGRAM
                                              PROVIDED ADEQUATE PROTECTIONS FOR U.S.
                                              FORESTRY WORKERS IN OREGON




                                                                 Date Issued:   October 17, 2011
                                                              Report Number:    17-12-001-03-321
U.S. Department of Labor                                    October 2011
Office of Inspector General
Office of Audit
                                                            PROGRAM DESIGN ISSUES HAMPERED ETA'S
                                                            ABILITY TO ENSURE THE H-2B VISA PROGRAM
                                                            PROVIDED ADEQUATE PROTECTIONS FOR U.S.
BRIEFLY…                                                    FORESTRY WORKERS IN OREGON
Highlights of Report Number 17-12-001-03-321, issued
to the Assistant Secretary for Employment and Training.     WHAT OIG FOUND
                                                            The OIG found program design issues hampered ETA’s
WHY READ THE REPORT                                         ability to provide adequate protections for U.S. workers
The Office of Inspector General (OIG) audited the           in the H-2B applications filed by the four Oregon
Employment and Training Administration’s (ETA) role in      forestry employers. On March 18, 2011, ETA issued
the H-2B visa program. Oregon Congressman Peter             proposed regulations to address these issues. We also
DeFazio asked the OIG in a letter dated September 3,        found that certain State Workforce Agencies (SWA) did
2010, to review the H-2B application process for four       not fulfill their responsibilities, and ETA could improve
Oregon-based employers listed in an article in the          its oversight and monitoring to better protect the
Oregon Bend Bulletin News on August 9, 2010. The            interests of U.S. workers under the regulations.
Congressman was concerned about possible H-2B visa
irregularities related to Forest Service contracts in       Our audit identified that the H-2B application process
central Oregon funded by the American Recovery and          did not allow for meaningful validation before
Reinvestment Act (Recovery Act). According to U.S.          applications were approved. We found two of the four
Forest Service officials, the four employers reviewed       employers reviewed reported to ETA they had made job
were awarded 14 fiscal year (FY) 2010 Recovery Act          offers to 29 U.S. workers; however, none of these
contracts totaling $7,140,782 for forestry work in          workers began employment. Regulations required
Oregon.                                                     employers to post a job order and newspaper
                                                            advertisement in the state of initial employment only,
Employers submit H-2B applications to the Department        regardless of where subsequent work would be
of Labor’s (DOL) Office of Foreign Labor Certification      performed. Six of nine H-2B applications we reviewed
(OFLC) within ETA. To obtain an H-2B certification and      included work in Oregon, but the work began in other
comply with employment protections, employers self-         states. Employers were not required to recruit U.S.
attest that U.S workers capable of performing the job       workers in Oregon, and we were provided no evidence
are not available and that the employment of foreign        that they did. We also found that the five SWAs
workers will not adversely affect the wages and working     reviewed did not transmit posted job orders to Oregon
conditions of similarly employed U.S. workers. ETA is       or other states where work was occurring, and three
responsible for an initial review of the H-2B application   SWAs were not making job referrals to employers —
and recruitment report. In addition, since a regulation     both H-2B requirements.
change in January 2009, ETA can conduct
post-adjudication reviews to validate employer              In addition, we identified that during the initial H-2B
self-attestations.                                          application review, ETA did not validate that the
                                                            petitioning employer was a bonafide business or
WHY OIG CONDUCTED THE AUDIT                                 validate the employer-submitted prevailing wage. Also,
                                                            during its post-adjudication process ETA did not verify
The audit objective was to answer the following             the names listed on the employers’ recruitment reports
question:                                                   to determine if these individuals actually applied for
                                                            employment.
Was ETA able to ensure that the H-2B visa program
provided adequate protections for U.S. workers in the       WHAT OIG RECOMMENDED
applications filed by the four Oregon forestry              The OIG recommended that the ETA Assistant
employers?                                                  Secretary reassess the requirement for employers to
                                                            only recruit U.S. workers in the state of initial
READ THE FULL REPORT                                        employment, develop and implement procedures to
                                                            strengthen the application review and post–adjudication
To view the report, including the scope, methodology,       processes, and develop and implement controls to
and full agency response, go to:                            better monitor SWAs’ compliance with program
http://www.oig.dol.gov/public/reports/oa/2012/17-12-        requirements.
001-03-321.pdf
                                                            The Assistant Secretary generally agreed with our
                                                            recommendations and has planned to take actions to
                                                            address them.
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              H-2B Certification for Temporary Non-Agricultural Work
                                        Report No. 17-12-001-03-321
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — Was ETA able to ensure that the H-2B visa program provided 

            adequate protections for U.S. workers in the applications filed by the 

            four Oregon forestry employers?........................................................... 5

         ETA could not demonstrate whether or not U.S. workers were protected 

         by the H-2B visa program..................................................................................... 5


Recommendations ...................................................................................................... 12


Exhibits
         Exhibit 1 Reasons U.S. Workers Were Not Hired............................................... 15

         Exhibit 2 Prevailing Wages Paid to Foreign Workers ......................................... 17


Appendices
         Appendix A Background ..................................................................................... 21

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23

         Appendix C Acronyms and Abbreviations .......................................................... 27

         Appendix D ETA Response to Draft Report ....................................................... 29

         Appendix E Acknowledgements ......................................................................... 33





                                                             H-2B Certification for Temporary Non-Agricultural Work
                                                                                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





             H-2B Certification for Temporary Non-Agricultural Work
                                       Report No. 17-12-001-03-321
                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




October 17, 2011

                         Assistant Inspector General’s Report



Jane Oates
Assistant Secretary for Employment and Training
Employment and Training Administration
US Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

Oregon Congressman Peter DeFazio asked the Office of Inspector General (OIG) in a
letter dated September 3, 2010, to review the H-2B application process for four
Oregon-based employers listed in an article in the Oregon Bend Bulletin News on
August 9, 2010. The Congressman was concerned about possible H-2B visa
irregularities related to Forest Service contracts in central Oregon funded by the
American Recovery and Reinvestment Act (Recovery Act). According to U.S. Forest
Service officials, the four employers reviewed were awarded 14 fiscal year (FY) 2010
Recovery Act contracts totaling $7,140,782 for forestry work in Oregon.

Employers submit H-2B applications to the Department of Labor’s (DOL) Office
of Foreign Labor Certification (OFLC) within the Employment and Training
Administration (ETA). To obtain H-2B certification and comply with employment
protections, employers self-attest that U.S workers capable of performing the job
are not available and that the employment of foreign workers will not adversely
affect the wages and working conditions of similarly employed U.S. workers. The
State Workforce Agency (SWA) is responsible for accepting and placing job
orders into their data system and sharing it with other relevant states; reviewing
and providing referrals to employers; and verifying employment eligibility of the
applicants who apply to the SWA to be referred for the job opportunity. ETA is
responsible for an initial review of the H-2B application and recruitment report. In
addition, since a regulation change in January 2009, ETA can conduct
post-adjudication reviews to validate employer self-attestations.

To address the Congressman’s complaint regarding employment protections for U.S.
workers in the H-2B visa program, the audit objective was to answer the following
question:

     Was ETA able to ensure that the H-2B visa program provided adequate protections
     for U.S. workers in the applications filed by the four Oregon forestry employers?


                                            H-2B Certification for Temporary Non-Agricultural Work
                                             1                        Report No. 17-12-001-03-321
                                                          U.S. Department of Labor – Office of Inspector General



In order to test ETA’s oversight of the four Oregon-based employers, we reviewed nine
H-2B applications submitted by the four employers between October 1, 2009, and
January 31, 2011. We interviewed ETA personnel and reviewed H-2B application and
post-adjudication review procedures conducted by ETA’s National Processing Center
(NPC). We reviewed the nine H-2B applications to determine if ETA adhered to current
program regulations and if the applications contained any improprieties. In addition, we
interviewed SWA program officials where the four Oregon-based employers filed
forestry job orders, analyzed SWA documentation for the nine job orders submitted,
analyzed the corresponding recruitment reports and employer payroll records, and
interviewed six U.S. workers whom these employers had reported as having hired. We
also interviewed representatives from the U.S. Forest Service concerning Recovery Act
forestry contracts awarded to Oregon employers. U.S. Forest Service officials informed
us that the Forest Service awarded 14 fiscal year (FY) 2010 Recovery Act contracts to
the four employers totaling $7,140,782 for forestry work in Oregon. However, the H-2B
applications do not identify a funding source; therefore, we could not determine how
much in Recovery Act funds were actually used to pay foreign workers.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

Results In Brief

Program design issues hampered ETA’s ability to provide adequate protections for U.S.
workers in the H-2B applications filed by the four Oregon forestry employers. On
March 18, 2011, ETA proposed new regulations designed to address these issues. We
also found that certain SWAs did not fulfill their responsibilities for the H-2B applications
we reviewed. Furthermore, we found that ETA could improve its initial application
reviews, post-adjudication processes, and monitoring activities to better protect the
interests of U.S. workers under the regulations by which the program currently operates.

Program Design Issues

The current H-2B application process is an employer attestation-based model that does
not permit meaningful validation before the application is approved. In proposing to
revise the regulations governing the program, ETA stated that deferring many
determinations of program compliance until after an application has been adjudicated
does not provide an adequate level of protection for U.S. workers. As an example, our
audit found that two of the four Oregon-based employers reported to ETA that they had
made job offers to 29 U.S. workers at the time of their H-2B application submission.1 We
verified with the employers that none of these workers began employment. We spoke
1
    As a result, ETA reduced the employers’ foreign labor certification approvals by 29 H-2B workers.

                                                          H-2B Certification for Temporary Non-Agricultural Work
                                                           2                        Report No. 17-12-001-03-321
                                          U.S. Department of Labor – Office of Inspector General



with two workers who reported that the employer used discouraging language, such as
references to age and the ability to speak another language, which are not valid
conditions of employment.

Under current regulations, the H-2B recruitment report that accompanies the H-2B
application documents the employer’s efforts to recruit U.S. workers and must be
submitted to ETA no more than 4 months prior to the job start date. Allowing such a
lengthy period of time between the recruitment effort and the date the employer actually
needs the workers makes the recruitment less likely to result in the hiring of U.S.
workers. ETA is proposing to change this rule to require the employer to file the H-2B
application no more than 90 calendar days and no fewer than 75 calendar days before
the employer’s date of need. The proposed regulations also require the SWA to keep
job orders on its active file and continue to refer U.S. workers who apply for the job
opportunity until 3 days before the date of need, when it is assumed that the last H-2B
worker has departed for the place of employment.

The current H-2B regulations require employers to post a job order and newspaper
advertisements in the state of initial employment only, regardless of whether
subsequent work will be performed in other states. Our audit found that three of the four
employers we reviewed listed work sites in Oregon, but the work began in other states.
These employers only posted job orders with those State Workforce Agencies (SWAs)
where the work began. The three employers were not required to recruit U.S. workers in
Oregon, and we were provided no evidence that they did. The fourth employer did not
list Oregon as a worksite on its H-2B applications.

Only two Oregonians were listed on the employer recruitment reports, indicating that
workers in Oregon were likely unaware these job opportunities were available. In fact,
although 146 U.S. workers were contacted by the three employers regarding possible
employment, none were hired. Instead, 254 foreign workers were brought into the
country for these jobs. The reasons most often cited by employers for not hiring these
U.S. workers were that the employer attempted to contact applicant but received no
response; the applicant was no longer interested in employment; or the applicant was
looking for local work (see Exhibit 1).

Once finalized and implemented, ETA’s proposed regulations will change the design
and operation of the H-2B application process from a self-attestation model to a
program that emphasizes the review of compliance through documentation provided to
ETA in advance of the certification determination. However, until the new proposed
regulations are finalized, the H-2B program continues to operate under the
self-attestation model and ETA needs to address the recommendations identified in our
report.

Responsibilities of SWAs

The regulations require SWAs to share job orders with states where subsequent work
will be performed, thus allowing U.S. workers in those states to have an opportunity to

                                          H-2B Certification for Temporary Non-Agricultural Work
                                           3                        Report No. 17-12-001-03-321
                                                       U.S. Department of Labor – Office of Inspector General



apply. However, the five SWAs we reviewed did not transmit posted job orders to
Oregon or other states as required. We also found that three SWAs were not making
job referrals to employers. This failure by the SWAs to carry out their H-2B program
responsibilities further contributed to the difficulties that U.S. workers in Oregon and
other states faced in becoming aware of, and applying for, jobs with these four
employers.

SWAs will have increased responsibilities and involvement under the proposed new
regulations, including a collaborative recruitment effort with ETA. Given the problems
with SWAs’ performance identified during our audit, ETA will need to more closely
monitor SWA activities and results.

ETA’s Application Review, Post-Adjudication Process and Monitoring Activities

    •   Initial Application Review

During the initial H-2B application review, ETA did not validate that the petitioning
employer was a bonafide business. Also, ETA did not independently validate that the
employer-submitted prevailing wage represented the specific wage for the job
classification named in the submitted H-2B application for the specific geographical
location(s).2 While these verifications are not required by current regulations, we do not
believe that ETA is precluded from verifying the information. We also identified two
employer recruitment reports that did not contain all the required U.S. worker contact
information, such as an applicant’s first and last name, address and phone number.
Without complete contact information, ETA cannot ensure the credibility of the employer
assertions in the application.

    •   Post-Adjudication Process

Under current H-2B regulations, the primary way ETA monitors the validity of employer
self-attestations is through its post-adjudication process. However, ETA’s current
post-adjudication process could be improved. Based on Congressman DeFazio’s
complaint, ETA performed post-adjudication reviews of 11 Oregon-based forestry
employer applications, including four of the nine applications that we reviewed. During
our analysis of these four applications, we compared employers’ payroll records to the
filed recruitment reports and identified 17 U.S. workers who were reported as being
hired, but none actually began employment.3 Furthermore, ETA did not independently
verify the names listed on the employers’ recruitment reports to determine if these
individuals actually applied for employment.


2
  Since our audit fieldwork, ETA officials stated the NPC now has access to the iCert system to independently
validate the prevailing wage.
3
 The 17 U.S. workers reported as being hired were part of the 29 U.S. workers that we identified from the same two
employers. We reviewed five additional applications that ETA did not review from the four employers listed in
Congressmen DeFazio’s complaint and identified an additional 12 U.S. workers reported as being hired, but did not
go to work for the employers.
.


                                                       H-2B Certification for Temporary Non-Agricultural Work
                                                        4                        Report No. 17-12-001-03-321
                                           U.S. Department of Labor – Office of Inspector General



   •   Monitoring Activities

In FY 2010, ETA provided $15 million to SWAs to manage the foreign labor programs.
However, ETA provided little to no guidance to the SWAs we reviewed to ensure their
compliance with regulations. ETA was not aware that the five SWAs reviewed had not
transmitted job orders related to the H-2B applications we reviewed to other states. ETA
was also unaware that some states had not made job referrals to employers, or states
that made referrals had not ensured that the individuals referred were legally able to
work in the U.S. as required. ETA’s ability to protect the interests of U.S. workers is
dependent upon the SWAs performing their regulatory roles. Furthermore, ETA was
unable to provide a breakdown of how each SWA allocated foreign labor program funds
between the H-2A and H-2B programs as required. ETA informed us they did not begin
reviewing the SWAs’ quarterly financial reports until March 2011. As a result, ETA had
no assurance that SWAs were allocating and using foreign labor program funds as
intended.

We recommend the Assistant Secretary for ETA reassess the requirement for
employers to only recruit U.S. workers in the state of initial employment, develop and
implement procedures to strengthen the application review and post-adjudication
processes, and develop and implement controls to better monitor SWAs’ compliance
with program requirements.

In responding to our draft report, the Assistant Secretary for Employment and Training
generally agreed to our recommendations and has planned to take actions to address
them. The Assistant Secretary’s entire response is contained in Appendix D.

RESULTS AND FINDINGS

Objective — Was ETA able to ensure that the H-2B visa program provided
            adequate protections for U.S. workers in the applications filed by the
            four Oregon forestry employers?

       ETA could not demonstrate whether or not U.S. workers were protected by the
       H-2B visa program.

Program design issues hampered ETA’s ability to provide adequate protections for U.S.
workers in the H-2B applications filed by the four Oregon forestry employers. On
March 18, 2011, ETA issued proposed new regulations designed to address these
issues. We also found that certain SWAs did not fulfill their responsibilities for the H-2B
applications we reviewed. Furthermore, we found that ETA could improve its initial
application reviews, post-adjudication processes, and monitoring activities to better
protect the interests of U.S. workers under the regulations by which the program
currently operates.




                                           H-2B Certification for Temporary Non-Agricultural Work
                                            5                        Report No. 17-12-001-03-321
                                                         U.S. Department of Labor – Office of Inspector General



Current H-2B Regulations Do Not Provide U.S. Workers Adequate Protections.

The H-2B program operates under Title 20, Code of Federal Regulations (20 CFR), Part
655, and relies on employers to self attest regarding their efforts to recruit U.S. workers.
Employers seeking to employ temporary H-2B workers must file an H-2B application
and a corresponding recruitment report with ETA. Accompanying the application are the
employer’s attestations that (1) there are not sufficient U.S. workers capable of
performing the temporary services or labor at the time of and at the place where the
work will be performed, and (2) employment of foreign workers will not adversely affect
the wages and working conditions of similarly employed U.S. workers. ETA’s NPC has
7 calendar days to review and issue a decision on the H-2B application and attestations.

Currently, 20 CFR, Part 655.15 (d), (e), and (f) only require employers to post a job
order and newspaper advertisements in the state of initial employment regardless of
whether subsequent work will be performed in additional states. Our audit found that
three of the four employers we reviewed listed work sites in Oregon, but the work began
in other states. These employers listed California, Washington, and Wyoming as the
states of initial employment; and accordingly, posted the job orders with those State
Workforce Agencies (SWAs). Per the regulations, employers were required to recruit
U.S. workers in those states only. The three employers were not required to recruit U.S.
workers in Oregon, and we were provided no evidence that they did. The fourth
employer did not list Oregon as a worksite on its H-2B applications.

Only two Oregonians were listed on the employer recruitment reports, indicating that
workers in Oregon were likely unaware that these job opportunities were available. In
fact, although 146 U.S. workers were contacted by the three employers regarding
possible employment, none were hired. Instead, 254 foreign workers4 were brought into
the country for these jobs (see Table 1). The legal reasons employers reported that U.S.
workers were not hired included the following: 1) Employer attempted to contact
applicant, but received no response; 2) Applicant no longer interested; and 3) Applicant
looking for local work (see Exhibit 1 for reasons U.S. workers were not hired).

Table 1: Oregon Applicants Listed on Employer Recruitment Reports
                                                                                 Number of
                                                                  Number of             U.S.    Number of
                                                                         U.S.    Applicants        Oregon
                                                       Number     Applicants      Listed on     Applicants    Number of
                                                            of     Listed on      Employer       Listed on       Oregon
                                 Number    Number of   Foreign     Employer     Recruitment      Employer     Applicants
                                  of Job     Workers   Workers   Recruitment     Report Not    Recruitment    Hired from
Employer Name                     Orders   Requested     Hired        Report           Hired        Report   Recruitment
Medford Cutting Edge Forestry         3          184       106           112             92             2             0
Summitt Forestry, Inc.                2          166       120            25             16             0             0
Ponderosa Reforestations, Inc.        1           50        28             9              9             0             0
TOTALS:                               6          400       254           146            117             2             0


4
 The 254 foreign workers were hired under the six job orders which listed worksites in Oregon (an employer must
submit a job order to the State Workforce Agency for each H-2B application). A total of 323 foreign workers were
hired under the nine job orders we reviewed in total.
                                                         H-2B Certification for Temporary Non-Agricultural Work
                                                          6                        Report No. 17-12-001-03-321
                                                       U.S. Department of Labor – Office of Inspector General




Current regulations do not require employers to actively recruit U.S. workers beyond 4
months of the date of need or outside the state where the work begins. As such,
interviewed unemployed U.S. workers who required immediate employment expressed
reluctance to apply and accept temporary employment, which was scheduled to begin
at a much later date.

ETA has proposed revisions to the H-2B regulations to strengthen employer recruiting
requirements, acknowledging that the current regulations do not provide an adequate
level of protection for U.S. workers. ETA is proposing to require the employer to file the
H-2B application no more than 90 calendar days and no fewer than 75 calendar days
before the employer’s date of need. The proposed regulations also require the SWA to
keep job orders on its active file and continue to refer U.S. workers who apply for the job
opportunity until 3 days before the date of need, when it is assumed that the last H-2B
worker has departed for the place of employment.

The Department stated that deferring many determinations of program compliance until
after an application has been adjudicated does not provide an adequate level of
protection for U.S. workers. As an example, our audit found that two of the four
Oregon-based employers reported to ETA that they had offered jobs to 29 U.S. workers
at the time of their H-2B application submission.5 We verified with the employers that
none of these workers actually began employment with them. We spoke with two
workers who reported that the employer used discouraging language, such as
references to age and inquiries about speaking another language, which are not valid
conditions of employment.

Once finalized and implemented, ETA’s proposed regulations will change the design
and operation of the H-2B application process from a self-attestation model to a
program that emphasizes the review of compliance through documentation provided to
ETA in advance of the certification determination. However, until the new proposed
regulations are finalized, the H-2B program continues to operate under the
self-attestation model and ETA needs to address the recommendations identified in our
report.

SWAs Did Not Fulfill Their H-2B Responsibilities.

The four employers (Summit Forestry, Cutting Edge, GE Forestry, and Ponderosa)
posted job orders between October 1, 2009 and January 31, 2011, with SWAs in
Arizona, California, Idaho, Washington, and Wyoming. Based on our review of the
responsibilities required of the five SWAs in processing the nine job orders in our audit,
we identified that none of the SWAs provided interstate clearance (i.e., shared job
orders with other states on itinerary).6



5
 Based on the employers’ applications, ETA reduced their foreign labor certification approval by 29 H-2B workers.
6
 We also contacted SWA officials in Oregon who stated that Oregon provides interstate clearance of each job order.
However, we were unable to validate this because no job orders selected for our review were posted in Oregon.
                                                       H-2B Certification for Temporary Non-Agricultural Work
                                                        7                        Report No. 17-12-001-03-321
                                                       U.S. Department of Labor – Office of Inspector General



20 CFR, Part 655.15(e), Job Order. (1), states:

        … If the job opportunity contains multiple work locations within the same
        area of intended employment and the area of intended employment is
        found in more than one State, the employer shall place a job order with
        the SWA having jurisdiction over the place where the work has been
        identified to begin. Upon placing a job order, the SWA receiving the job
        order under this paragraph shall promptly transmit, on behalf of the
        employer, a copy of the active job order to all States listed in the
        application as anticipated worksites.

Furthermore, none of the SWAs were able to verify whether or not actual referrals were
made to employers because their data systems could not differentiate between whether
an individual only viewed the job posting or applied for the job.7 Therefore, the SWAs
were unable to verify employment eligibility of actual referrals.

20 CFR, Part 655.15(i), Referral of U.S. workers, states:

        SWAs may only refer for employment individuals for whom they have
        verified identity and employment authorization through the process for
        employment verification of all workers that is established by INA sec.
        274A(b). SWAs must provide documentation certifying the employment
        verification that satisfies the standards of INA sec. 274A(a)(5) and its
        implementing regulations at 8 CFR 274a.6.

This failure by the SWAs to carry out their H-2B program responsibilities further
contributed to the difficulties that U.S. workers from Oregon and other states faced in
becoming aware of and applying for jobs with these four employers.

ETA Could Improve Its Initial Review of Applications, Post-Adjudication Review
Process, and Monitoring of SWAs.

    •   Initial Review of Applications

    During the initial H-2B application review, ETA did not validate that the petitioning
    employer was a bonafide business. Also, ETA did not independently validate that the
    employer-submitted prevailing wage represented the specific wage for the job
    classification named in the submitted H-2B application for the specific geographical
    location(s).8 While these verifications are not required by the current regulations, we
    do not believe that ETA is precluded from verifying the information and ensuring the
    credibility of the application.



7
 The California, Idaho, and Washington SWAs did not provide any U.S. applicant referrals to the employer.
8
 Since our audit fieldwork, ETA officials stated the NPC now has access to the iCert system to independently
validate the prevailing wage.

                                                       H-2B Certification for Temporary Non-Agricultural Work
                                                        8                        Report No. 17-12-001-03-321
                                                      U.S. Department of Labor – Office of Inspector General



     We also identified two employer recruitment reports from an employer that did not
     contain all the required U.S. worker contact information, such as applicant’s first and
     last name, and/or address and phone number. Although the employer’s recruitment
     reports were missing required contact information, ETA certified both applications.9
     Without complete contact information, ETA cannot ensure the credibility of the
     employer assertions in the application.

     •   Post-adjudication Review

     ETA conducts reviews of certified or partially certified H-2B applications within its
     sole discretion and authority under 20 CFR, Part 655.24. ETA performs these
     reviews to ensure quality control and program compliance, and to further validate in
     detail, employer-submitted support documents.

     ETA’s post-adjudication selection process was based on applications that had
     complaints against submitting employers, and were from employers on ETA’s
     consistency watch list, as well as randomly selected applications at the discretion of
     a Certifying Officer (CO). For the applications selected, ETA may notify the employer
     of a review approximately 6 months after certification. Once ETA initiates a review, it
     can issue a Request for Supplemental Information, such as employer payroll
     records. The CO performs a final review to determine if the support documentation
     provided by the employer supports attestations made on the H-2B application.

     Based on the complaint received from Congressman DeFazio, ETA performed
     reviews of 11 forestry employer applications. ETA’s review included 4 applications
     that we reviewed. During our analysis of the four, we compared employer payroll
     records to the recruitment reports and identified 17 U.S. workers that were reported
     as being hired, but never began employment.10 While the regulations do not prohibit
     ETA from performing the same comparison, ETA did not verify if the U.S. workers
     listed on the recruitment report as hired were actually hired by the employer.

     ETA lacked a standardized methodology for selecting employer applications for
     post-adjudication review, as well as procedures detailing the process to follow in
     performing the review, including which employer documents to request. In addition,
     ETA’s post-adjudication reviews have not included comparisons of employer payroll
     records to names of U.S. workers listed on the recruitment reports. A thorough
     review of employer payroll records is essential for determining whether U.S. workers
     who were listed as hired were hired and paid the prevailing wage. We verified that
     the foreign workers the employers hired were paid the prevailing wage and were
     legally able to work in the U.S. (see Exhibit 2 for prevailing wages paid to foreign
     workers).

9
 These H-2B applications did not contain any worksites in Oregon.
10
 The 17 U.S. workers reported as being hired were part of the 29 U.S. workers that we identified from the same two
employers. We reviewed five additional applications that ETA did not review from the four employers listed in
Congressmen DeFazio’s complaint and identified an additional 12 U.S. workers reported as being hired, but were not
actually hired.

                                                      H-2B Certification for Temporary Non-Agricultural Work
                                                       9                        Report No. 17-12-001-03-321
                                                         U.S. Department of Labor – Office of Inspector General




      We determined that all four employers significantly overstated their actual need for
      foreign workers. A total of 700 workers were approved on the H-2B applications, but
      the employers only hired 323 foreign workers (see Table 2). We verified the number
      of foreign workers eligible to be employed in the United States to determine the
      extent to which employers actually hired foreign workers relative to the number they
      had requested.

Table 2: U.S. Applicant Breakdown Per Employer
                                                                                  Number of
                                                                   Number of             U.S.    Number of
                                                                          U.S.    Applicants            U.S.
                                                      Number       Applicants      Listed on     Applicants     Number of
                                            Number          of      Listed on      Employer       Hired Per            U.S.
                                 Number          of   Foreign       Employer     Recruitment      Employer      Applicants
                                  of Job    Workers   Workers     Recruitment     Report Not    Recruitment     Hired from
                                                             11
Employer Name                     Orders   Approved    Hired           Report           Hired        Report    Recruitment
G.E. Forestry                         3         300         69             41             41              0              0
Medford Cutting Edge Forestry         3         184        106            112             92             20              0
Summitt Forestry, Inc.                2         166        120             25             16              9              0
Ponderosa Reforestations, Inc.        1          50         28              9              9              0              0
TOTALS:                               9         700        323            187            158             29              0


      •   Monitoring of SWAs’ Job Order Process

     The regulations state the primary duties all SWAs must perform when processing
     H-2B job orders, which include accepting and placing job orders into intra and
     interstate clearance, reviewing and providing referrals to employers, and verifying
     employment eligibility of applicants referred to the employer. When we requested
     clarification of SWA H-2B responsibilities, ETA responded that SWAs’ role was limited
     to the placement of the employer’s required job order into their respective
     labor-exchange systems under the current attestation design. The regulations require
     the SWAs to perform more duties than placing the employer’s required job order into
     their respective labor-exchange systems. However, ETA provided little to no guidance
     to the SWAs we reviewed to ensure their compliance with regulations. ETA’s ability to
     protect the interests of U.S. workers is dependent upon the SWAs performing their
     regulatory roles. If SWAs do not perform their H-2B responsibilities, U.S. worker
     protections are further diminished.

      •   Monitoring SWAs H-2B Funding

     For FY 2010, ETA issued TEGL 20-09, requiring the monitoring of SWAs’ allocation
     and use of H-2B funding by reviewing the SWAs’ (1) annual plan that identifies how
     foreign labor program funds would be used and how they split the allocation between

11
  323 foreign workers were hired related to the nine H-2B job orders we reviewed in total (an employer must
submit a job order to the State Workforce Agency for each H-2B application). Table 1 reflects only those 254
foreign workers who were hired under the six job orders which listed worksites in Oregon.

                                                         H-2B Certification for Temporary Non-Agricultural Work
                                                          10                       Report No. 17-12-001-03-321
                                                       U.S. Department of Labor – Office of Inspector General



     agricultural (H-2A) and nonagricultural (H-2B), and (2) quarterly financial reports
     submitted to ETA. However, ETA was unable to provide us with a breakdown of how
     each SWA allocated foreign labor program funds — totaling $15 million — between
     the H-2A and H-2B programs. Furthermore, ETA informed us they did not begin
     reviewing the SWAs’ quarterly financial reports until March 2011. As such, no
     monitoring of the expenditure of these foreign labor funds was conducted by the
     agency. As a result, ETA had no assurance that SWAs were allocating and using
     foreign labor program funds as intended.

     During our discussions with the SWAs, we requested that each provide us with the
     amount of funding spent on H-2B activities. We found the following:

             •	 California received no H-2B funding for FY 2010.12
             •	 Idaho allocated less than one percent of its funding to the H-2B program.
             •	 Wyoming could not identify the amount of funds it allocated to the H-2B
                program.
             •	 Arizona, Oregon, and Washington did not provide a budget or the
                allocation of funds.

     As a result, we requested ETA provide us a copy of each of the six SWAs’ annual
     plans. ETA could not provide us a copy of the FY2010 annual plan for the State of
     California, although they provided us with a copy of the FY2009 plan. In FY2009, the
     State of California received $1.5 million in H-2B funding but none in FY2010. Only two
     of the six states (Oregon and Washington) allocated funds between H-2A and H-2B,
     as required by the TEGL, by providing a percentage breakdown of the funding.
     Furthermore, ETA was unable to provide us with a breakdown of how the remaining
     SWAs and territories allocated foreign labor program funds.

     ETA indicated it did not have access to the SWAs’ quarterly FY 2010 reports, even
     though the TEGL required SWAs to submit them to ETA. ETA officials told us they
     have since gained access to the electronic grant management system and allocated
     staff to begin review of SWA quarterly financial reports. In addition, ETA stated they
     are in the process of implementing a full grant management and monitoring program.
     ETA’s failure to monitor the six SWAs’ allocation of foreign labor program funds
     increased the risk for misuse, waste, or abuse.

     SWAs will have increased responsibilities and involvement under the proposed new
     regulations, including a collaborative recruitment effort with ETA. Given the problems
     with SWAs’ performance identified during our audit, ETA will need to more closely
     monitor SWA activities and results.




12
 The California SWA declined all H-2B funding for FY2010 as it did not plan to spend extended time or funds for the
H-2B program, believing the regulations relieved the state of its H-2B responsibilities

                                                       H-2B Certification for Temporary Non-Agricultural Work
                                                        11                       Report No. 17-12-001-03-321
                                          U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training
Administration:

1. Reassess the requirement for employers to only recruit U.S. workers in the state of
   initial employment.

2. Develop and implement procedures to strengthen the application review and
   post-adjudication processes.

3. Develop and implement controls to better monitor SWAs’ compliance with program
   requirements.

We appreciate the cooperation and courtesies that ETA personnel extended to the OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                          H-2B Certification for Temporary Non-Agricultural Work
                                           12                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




Exhibits 





             H-2B Certification for Temporary Non-Agricultural Work
              13                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





             H-2B Certification for Temporary Non-Agricultural Work
              14                       Report No. 17-12-001-03-321
                                         U.S. Department of Labor – Office of Inspector General



                                                                                   Exhibit 1
Reasons U.S. Workers Were Not Hired



Exhibit 1: Employer Reasons for Non-hire
Reasons                                                                                Totals
No reason provided                                                                          5
Applicant could not fulfill requirements                                                    8
Applicant wanted a different job                                                            9
Applicant looking for local work                                                           12
Applicant looking for permanent position                                                    1
Applicant looking for higher level work                                                     3
Employer attempted to contact applicant but received no response                           38
Applicant already employed                                                                 10
Applicant no longer interested                                                             29
Applicant could not accept job - attending school                                           2
Total:                                                                                   117

NOTE: Of the 146 U.S. applicants listed on the employer recruitment reports, 117 were
not hired for reasons noted above. Furthermore, an additional 29 workers were reported
by two employers as hired on the recruitment reports; however, none actually went to
work for the employer. The employers confirmed the individuals never worked for them
and they did not have any payroll records for the individuals. The two employers,
Summitt and Cutting Edge, provided similar reasons why the U.S. applicants did not
come to work for them, such as the lag time between the application and the start of
work, and the applicants were concerned about committing to a future employment date
versus immediate employment.




                                         H-2B Certification for Temporary Non-Agricultural Work
                                          15                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK

                        BLANK




             H-2B Certification for Temporary Non-Agricultural Work
              16                       Report No. 17-12-001-03-321
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                         Exhibit 2
Prevailing Wages Paid to Foreign Workers


Exhibit 2: Prevailing Wages Paid to Foreign Workers
                                                                                 Employer Paid Prevailing
Employer Case Number                                  Prevailing Wage            Wage to Foreign Workers
GE Forestry-C-11003-52965                              $9.57 to $10.33                             Yes13
GE Forestry-C-09337-47479                                        $8.41                               Yes
GE Forestry-C-09357-48056                                       $10.86                               Yes
Cutting Edge-C-09331-47412                                      $10.60                             N/A14
Cutting Edge-C-10074-49639                            $10.60 to $15.90                             Yes15
Cutting Edge-C-10316-51688                             $9.57 to $12.92                             Yes16
Summitt-C-10306-51455                                  $9.57 to $14.05                             Yes17
Summitt-C-09313-47045                                  $9.55 to $14.33                             Yes18
Ponderosa-C-10243-50945                                $9.18 to $12.62                             Yes19




13
   Based on payroll records reviewed, GE Forestry paid all workers the prevailing wage for the 3 job orders, however,
the information provided did not distinguish between foreign or U.S. workers.
14
   Application denied
15
   67 foreign workers
16
   39 foreign workers
17
   51 foreign workers
18
   69 foreign workers
19
   28 foreign workers

                                                        H-2B Certification for Temporary Non-Agricultural Work
                                                         17                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             H-2B Certification for Temporary Non-Agricultural Work
              18                       Report No. 17-12-001-03-321
               U.S. Department of Labor – Office of Inspector General




Appendices 





               H-2B Certification for Temporary Non-Agricultural Work
                19                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





             H-2B Certification for Temporary Non-Agricultural Work
              20                       Report No. 17-12-001-03-321
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background

Concerned about the potential for abuse in the H-2B visa program, Oregon
Congressman Peter DeFazio in a letter dated September 3, 2010, asked the OIG to
review the certification of H-2B applications for those employers listed in the Oregon
Bend news article, dated August 9, 2010, for any improprieties. He was concerned that
the H-2B visa program, which was created to provide American employers access to
foreign workers for temporary, non-agricultural jobs, was preventing U.S. workers in
Oregon from getting forestry jobs. Furthermore, he was concerned that the forestry
employers were hiring non-American workers for projects funded by Recovery Act funds
from contracts with the U.S. Forest Service. According to U.S. Forest Service officials,
the four employers reviewed were awarded 14 FY 2010 Recovery Act contracts totaling
approximately $7,140,782 for forestry jobs in Oregon.

The H-2B nonimmigrant program permits employers to hire foreign workers to come
temporarily to the U.S. and perform temporary nonagricultural services or labor on a
one-time, seasonal, peakload or intermittent basis. The H-2B visa program regulations
require the petitioning employer to first apply for a temporary labor certification from the
Secretary of Labor indicating that (1) there are not sufficient U.S. workers who are
capable of performing the temporary services or labor at the time of filing the petition for
H-2B classification, and at the place where the foreign worker is to perform the work;
and (2) the employment of the foreign worker will not adversely affect the wages and
working conditions of similarly employed U.S. workers. The Secretary has delegated
H-2B responsibilities to ETA. Within ETA, OFLC processes applications for labor
certification.

For the period October 1, 2009, through January 31, 2011, there were 7,007 H-2B
applications requesting 169,363 positions submitted. Of these, 6,051 H-2B applications
for 145,094 positions were certified or partially certified. ETA amended its regulations in
January 2009 to modernize the procedures for ETA’s issuance of labor certifications to
employers sponsoring H-2B non-immigrants and the procedures for enforcing
compliance with attestations made by those employers, including post-adjudication
reviews. Specifically, this Final Rule re-engineered the application filing and ETA’s
review process by centralizing processing and by enabling employers to conduct
pre-filing recruitment of U.S. workers.

Prior to obtaining an H-2B labor certification, employers must determine that there are
not sufficient U.S. workers who are capable of performing the work for which labor
certification is sought. Specifically, the regulations require that the employer (1) post a
job order with the SWA serving the area of intended employment in order to obtain
referrals of interested U.S. workers through the interstate job order clearance system;
(2) publish two newspaper advertisements, one of which must be on a Sunday; (3)
contact the applicable union for referral of U.S. workers if the employer is a party to a
collective bargaining agreement that covers the job classification that is the subject of



                                            H-2B Certification for Temporary Non-Agricultural Work
                                             21                       Report No. 17-12-001-03-321
                                           U.S. Department of Labor – Office of Inspector General



the H-2B labor certification; and (4) contact workers who were laid off in the occupation
and in the area of intended employment, within 120 days of the first date on which an
H-2B worker is needed, to inform them of the position(s). The regulations also outline
specific information that must be included in all newspaper advertisements and job
orders, such as the name of the employer, the area of intended employment, the rate of
pay, a description of the position, and whether tools or equipment is to be provided by
the employer.

Additionally, the regulations require the employer to prepare, sign, and date a written
recruitment report that summarizes the recruitment steps undertaken, and the results of
such recruitment, including the lawful job-related reason(s) for not hiring any U.S.
workers who applied or were referred to the position. Employers seeking H-2B
certification must file an ETA Form 9142, Application for Temporary Employment
Certification, along with a copy of the recruitment report. In Section F.c, of the
completed form, employers are required to list the specific place(s) of employment.

ETA reviews the H-2B application and recruitment report. Prior to rendering a decision,
ETA can request further documentation through a Request for Information (RFI) when
the employer has submitted an application that does not comply with the regulations.
Based on their review, they can certify, partially certify, issue a second RFI, or deny the
application. Subsequent to certifying an application, effective January 2009, ETA can
conduct a post-adjudication review. The purpose of the post-adjudication review is to
verify the accuracy of applications, particularly those applications with complaints
against the filing employer and employers on the consistency watch list, with the goal of
acting as a deterrent to employer fraud.




                                           H-2B Certification for Temporary Non-Agricultural Work
                                            22                       Report No. 17-12-001-03-321
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Was ETA able to ensure that the H-2B visa program provided adequate protections for
U.S. workers in the applications filed by the four Oregon forestry employers?

Scope

The audit focused on four Oregon forestry employers noted in the Bend Bulletin news, 

who submitted nine H-2B applications between October 1, 2009, and January 31, 2011, 

and ETA’s application and post adjudication review process for the period 

October 1, 2009 to January 31, 2011. 


Field work was conducted at both, ETA’s National Office located in Washington, D.C., 

and the ETA’s NPC in Chicago, Ill. 


We conducted this performance audit in accordance with generally accepted 

government auditing standards. Those standards require that we plan and perform the 

audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our 

findings and conclusions based on the audit objective. We believe that the evidence 

obtained provides a reasonable basis for our findings and conclusions based on the 

audit objective. 


Methodology

We compiled background information concerning Congressman DeFazio’s complaint by
researching various media outlets to include news publications and internet news sites.
We also researched the Recovery Act’s website and determined that Recovery Act
funding does not prohibit an employer from participating in the H-2B program or using
H-2B labor. During this process, we identified prior and current laws and regulations
governing the H-2B program and gained understanding of program processes and
procedures. We also reviewed recent performance data reported by ETA and identified
data trends based on previous report years.

We conducted multiple interviews with OIG – Office of Labor Racketeering and Fraud
Investigations representatives to determine if they have any investigations or planned
investigations that would have an impact on our audit.

We held an entrance conference with ETA national office management to obtain H-2B
policies and procedures, ETA’s response to Congressman DeFazio’s complaint, and
other requested documentation.

We contacted U.S. Forest Service representatives to determine if they require
contractors to describe the type of workers they will use if awarded forestry contracts,

                                           H-2B Certification for Temporary Non-Agricultural Work
                                            23                       Report No. 17-12-001-03-321
                                             U.S. Department of Labor – Office of Inspector General



including H-2B workers. Additionally, we confirmed Recovery Act funded employers are
not precluded from hiring H2-B workers.

We visited ETA’s NPC to perform the following:

   1. Conduct interviews with ETA officials.
   2. Have staff provide a walkthrough of the entire application review process. 

      including post-adjudication reviews. 

   3. Obtain essential documentation including Standard Operating Procedures of the
      application review process and post-adjudication process.
   4. Identify internal controls for both the application review and post-adjudication
      processes.

We evaluated internal controls used by ETA for reasonable assurance that they
complied with appropriate regulations and procedures in approving foreign labor
certifications. Our consideration of ETA’s internal controls for foreign labor certification
procedures would not necessarily disclose all matters that might be reportable
conditions. Because of inherent limitations in internal controls, noncompliance may
nevertheless occur and not be detected.

To test the controls, we judgmentally reviewed six Forest Industry H-2B applications not
related to the complaint and identified areas where these processes can be improved.
We discussed potential recommendations with ETA’s NPC management.

Prior to our sampling process, ETA provided us with all H-2B applications received and
processed beginning October 1, 2009, through January 31, 2011. The data was
generated from ETA’s Case Management System. We performed a data reliability
assessment to ensure we received a complete and accurate data file. To determine
whether the data was reliable to select our sample, we performed various testing of
required data elements, interviewed ETA officials knowledgeable about the data, and
reviewed employer-submitted applications, which served as source data for all
information found in the Case Management System, including relevant general and
application controls. We concluded the data to be sufficiently reliable for our purposes.

From this universe, we extracted all Forest Industry applications submitted by
employers listed in Congressman DeFazio’s complaint to include:

       1.   G.E. Forestry
       2.   Medford’s Cutting Edge Forestry
       3.   Summitt Forests Inc.
       4.   Ponderosa Reforestation

During our testing phase, we provided the NPC the list of 4 forestry employers and
requested documentation to be included in each application file (i.e. recruitment report,
applicant resumes, newspaper advertisements, and SWA job order postings). The NPC
complied with our request and provided the documentation.


                                             H-2B Certification for Temporary Non-Agricultural Work
                                              24                       Report No. 17-12-001-03-321
                                            U.S. Department of Labor – Office of Inspector General




In order to facilitate our analysis of employer recruitment/hiring efforts, we contacted the
four employers and requested the following documentation for comparison and
verification:

       1. A comprehensive Recruitment Report, which would include full names,
          addresses and phone contact information for any worker who applied, and the
          results of that application, including whether interviewed and hired
       2. Supporting documentation for recruitment, including applications, resumes,
          and any other applicant documentation
       3. A copy of the completed U.S. Citizenship and Immigration Services (USCIS)
          I-9, Employment Eligibility Verification, with related documentation
       4. A copy of the completed and approved USCIS I-129, Petition for a
          Non-immigrant Worker
       5. For any person hired, the last available payroll records for each hired,
          accompanied by the state location of the worker during this time. Specifically,
          we requested the payroll records include gross pay, any payroll deductions,
          net pay, the number of hours worked, and the hourly rate.

USCIS documentation and employer payroll documents were used to determine the
number of foreign workers hired; the number of foreign workers who were retained or
rehired from a prior H-2B Job Order; whether the foreign worker’s eligibility status was
current; and whether the employer paid each worker the prevailing wage. Moreover, the
employers actual hiring of foreign workers was compared to the number of foreign
workers requested by each employer on the H-2B applications. Additionally, the
Recruitment Reports and supporting documentation were used to verify the number of
U.S workers hired by the employer, and to contact individual U.S workers, including
those reported as hired, to discover their recruitment experiences with the given
employer.

We requested and obtained contact information from ETA for the SWAs responsible for
posting the job orders related to the four forestry employers. The resulting SWAs were
Arizona, California, Idaho, Oregon, Washington, and Wyoming. We contacted each of
the six SWAs to determine their role in assisting employers identify U.S. applicants for
Forest Industry employment. If available, we also requested the SWA employee
referrals to Forestry H-2B employers and compared the referrals to each employer’s
recruitment report. We initially contacted the applicants listed by employers on their
recruitment report who were not hired and determined the reason for not hiring.
Subsequently, we contacted applicants only reported as hired by the employers. Their
reasons were then compared back to the reason provided by the employers on their
respective recruitment reports to identify any variances.

The Assistant Secretary for Employment and Training responded to draft report
No.17-11-002-03-321. However, our final report was not issued until FY12, and was
renumbered as 17-12-001-03-321.



                                            H-2B Certification for Temporary Non-Agricultural Work
                                             25                       Report No. 17-12-001-03-321
                                            U.S. Department of Labor – Office of Inspector General



Criteria

   •	   20 CFR Part 655, Labor Certification Process and Enforcement for Temporary
        Employment in Occupations Other Than Agriculture or Registered Nursing in the
        United States (H-2B Workers), and Other Technical Changes

   •	   Section 101(a)(15)(H)(ii)(b) of the Immigration and Nationality Act (INA)

   •	   Federal Register E928963

   •	   TEGL 27-06: Special Guidelines for Processing H-2B Temporary Labor 

        Certification in Tree Planting and Related Reforestation Occupations 


   •	   ETA’s internal H-2B Standard Operating Procedures

   •	   ETA’s Post Adjudication Audit Standard Operating Procedures

   •	   OMB Circular A 123 – Management’s Responsibility for Internal Control




                                            H-2B Certification for Temporary Non-Agricultural Work
                                             26                       Report No. 17-12-001-03-321
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix C
Acronyms and Abbreviations


CFR           Code of Federal Regulations

CO            Certifying Officer

DOL           Department of Labor

ETA           Employment and Training Administration

FY            Fiscal Year

INA           Immigration and Nationality Act

NPC           (Chicago) National Processing Center

OFLC          Office of Foreign Labor Certification

OIG           Office of Inspector General

RFI           Request for Further Information

SWA           State Workforce Agency

TEGL          Training and Employment Guidance Letter

USCIS         U.S. Citizenship and Immigration Services




                                        H-2B Certification for Temporary Non-Agricultural Work
                                         27                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             H-2B Certification for Temporary Non-Agricultural Work
              28                       Report No. 17-12-001-03-321
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                             Appendix D
ETA Response to Draft Report



     u.s. Department of Labor               Employment and Training Administration
                                            200 Constitution Avenue, N.W.
                                            Washington, D.C. 20210




             MEMORANDUM FOR:                ELLIOT P. LEWIS
                                            Assistant Inspector General

             FROM:                          JANE OATES          ~.~
                                            Assistant Secretary  U .
             SUBJECT:                       Response to the Office of the Inspector General's Audit of
                                            the Employment and Training Administration's Efforts to
                                            Ensure That the H-2B Visa Program Provided Adequate
                                            Protections for u.S. Forestry Workers in Oregon
                                            Draft Audit Report 17-11-002-03-321

             Date:                          September 30, 2011

             The Employment and Training Administration (ETA) appreciates the opportunity to
             provide a response to the Office of the Inspector General's (OIG) draft audit report on the
             Office of Foreign Labor Certification's (OFLC) efforts to ensure the H-2B visa program
             provides adequate protections for u.S. forestry workers in Oregon. We appreciate the
             time and effort OIG staff spent reviewing H-2B forestry applications, interviewing
             personnel at the Chicago National Processing Center (NPC), and the professional and
             collaborative manner in which the audit was conducted with OFLC staff. The following
             represents our responses and recommended actions for your consideration.

             Recommendation 1: Reassess the requirement for employers to only recruit U.S.
             workers in the state of initial employment.

             ET A Response: While our current regulations do not necessarily limit recruitment of
             U.S. workers to just one state, we acknowledge that we should consider strengthening the
             recruitment of U.S. workers for work occurring in multiple states. Under the current
             H-2B regulation published in December 2008, an employer is required to place an active
             job order for at least 10 calendar days with the State Workforce Agency (SWA) serving
             the area of intended employment no more than 120 calendar days before the employer's
             date of need. If the job opportunity contains multiple worksites within the same area of
             intended employment and that area covers multiple states, the regulations require the
             employer to place the job order with the SWA where the work is expected to begin. The
             SWA receiving the job order must then transmit, on behalf of the employer, a copy of the
             active job order to all States listed in the application as anticipated worksites. During the
             same period oftime that the job order is being circulated with the SWA, the employer is
             required to publish an advertisement on two separate days in a newspaper of general
             circulation serving the area of intended employment.




                                        I




                                                        H-2B Certification for Temporary Non-Agricultural Work
                                                         29                       Report No. 17-12-001-03-321
                                           U.S. Department of Labor – Office of Inspector General




Further, Training and Employment Guidance Letter (TEGL) No. 27-06 provides special
procedures for processing H-2B temporary labor certification applications in tree planting
and related reforestation occupations. The TEGL allows for multi-state itineraries and
provides employers with the option of either filing a single master application covering
multiple itineraries or separate applications for each itinerary where the tree planting or
related reforestation work will begin. If the itinerary includes worksite locations
covering multiple SWAs, the employer may submit a single application to the SW A
where the employment will begin, or ifthe start dates for each worksite location in the
itinerary are exactly the same, the employer may submit a single application to anyone of
the SWAs covered by the itinerary. The SWA receiving the job order would not only
have to place the job order in its own state for 10 days but also clear the job order with
the other appropriate states where the work is to be performed for 10 days and accept for
referral qualified applicants from those states. We will review this TEGL in light of the
Department's pending H-2B rulemaking when that process concludes.

Recommendation 2: Develop and implement procedures to strengthen the application
and post-adjudication processes.

ETA Response: While we agree with the recommendation generally, the current H-2B
regulation authorizes employers to simply attest to compliance with program
requirements. Under this attestation-based program model, our ability to verify employer
compliance with the program's regulations is limited during application processing;
however, compliance reviews may be conducted following the granting of a labor
certification.

We are, however, taking some steps where we can improve our ability to monitor
employer compliance during the application process. OIG noted a concern about the
process for employer verification as a bonafide business. Currently, OFLC requires the
employer to provide a Federal Employer Identification Number (FEIN) on ETA Form
9142 and attest to the accuracy of the FEIN. To strengthen employer compliance, OFLC
is designing an information technology system to support the H-2B program which
includes verifying the FEINs provided during the initial review of the application for
processing.

OIG also expressed concern about OFLC's practice for prevailing wage validation.
Historically, OFLC has only validated prevailing wage determinations when there was an
indication of a problem. However, with recent technological enhancements in OFLC's
iCERT system, staffs now verify for each application that the employer-stated wages
offered for the job opportunity meet or exceed the prevailing wage. This recent
advancement allows OFLC to strengthen the validation of prevailing wage attestations.

 The current H-2B regulation authorizes, for the first time, the Department to audit H-2B
 applications. Prior to beginning the actual audit process, OFLC had to develop the
 processes and standard operating procedures required to effectuate the audit ofH-2B
 labor certifications, including the training of staff. This process delayed the immediate




                                              2




                                           H-2B Certification for Temporary Non-Agricultural Work
                                            30                       Report No. 17-12-001-03-321
                                         U.S. Department of Labor – Office of Inspector General




implementation of the new audit authority. OFLC consistently reviews its audit
procedures for continuous improvement and will continue to do so.

Recommendation 3: Develop and implement controls to better monitor SWAs'
compliance with program requirements.

ETA Response: We agree that OFLC can strengthen aspects of its internal controls with
respect to SWA monitoring and the office routinely receives information from a variety
of sources when a SWA may not be meeting a regulatory or program guidance
responsibility. OFLC increased its monitoring ofSWA activities during FY 2011 and will
continue to review those procedures in light of available federal and state resources.

Thank you again for the opportunity to comment on this report.




                                            3




                                         H-2B Certification for Temporary Non-Agricultural Work
                                          31                       Report No. 17-12-001-03-321
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             H-2B Certification for Temporary Non-Agricultural Work
              32                       Report No. 17-12-001-03-321
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Tracy Katz (Audit Director), Michael Kostrzewa,
Barry Winnicki, Jerry Howe, Kathy Vochatzer, Fernando M. Paredes, and David
Sterling.




                                          H-2B Certification for Temporary Non-Agricultural Work
                                           33                       Report No. 17-12-001-03-321
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
